UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-1791

Jeffrey Alan Olson
Plaintiff - Appellant
v.
United States of America; Hennepin County
Defendants - Appellees
Appeal from U.S. District Court for the District of Minnesota
(0:20-cv-01249-PJS)
JUDGMENT

Before KELLY, WOLLMAN, and STRAS, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
June 03, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

Appellate Case: 21-1791

Page: 1

Date Filed: 06/03/2021 Entry ID: 5041959

